 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




Y2K READINESS OF MANAGED CARE
        ORGANIZATIONS




                    JUNE GIBBS BROWN
                     Inspector General

                         MAY 1999
                       OEI-05-98-00590
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago office prepared this report under the direction of William C. Moran, Regional
Inspector General and Natalie Coen, Deputy Regional Inspector General. Principal OEI staff
included:

REGION                                                   HEADQUARTERS

Thomas F. Komaniecki, Project Leader                     Stuart Wright, Program Specialist
Suzanne Johnson                                          Barbara Tedesco
                                                         Brian Ritchie

To obtain copies of this report, please call the Chicago Regional Office at (312)353-4124.
Reports are also available on the World Wide Web at our home page address:

                                   http://www.dhhs.gov/progorg/oei
                   EXECUTIVE                         SUMMARY

PURPOSE

        To examine the Year 2000 readiness of Medicare + Choice managed care organizations
        and provide information for the Health Care Financing Administration.

BACKGROUND

        The Year 2000 (Y2K) problem stems from the way computers have traditionally stored
        dates through the use of an “implied century.” To save memory and storage space,
        programmers have conventionally used only two digits, rather than four, in year date
        fields. The Health Care Financing Administration (HCFA) has made the Y2K initiative its
        number one priority and is committed to making sure that its date-sensitive systems and
        those of its business partners are ready to verify eligibility, enrollment, coverage and
        payment.

        Some of the key computer systems at risk among healthcare providers that could affect
        the 6.5 million Medicare beneficiaries enrolled in managed care are: premium billing
        systems, medical information systems, and managed care membership enrollment and
        disenrollment systems. Failure of these systems to correctly process data could negatively
        impact beneficiary access to care, service delivery, efficient Medicare reimbursement and
        quality of care.

        We sent surveys to 407 Medicare Managed Care Organization (MCO) contracts in
        January and February of 1999. We received 219 surveys, representing 310 MCO
        contracts, for a response rate of 76 percent.


FINDINGS

Managed Care Organizations appear to be moving toward internal Y2K
compliance

        Currently, 22 percent of MCOs claim being Y2K ready. Of the 78 percent of MCOs that
        are currently not Y2K ready, nearly two-thirds report that all of their computer systems
        will be Y2K ready by December 31, 1999. Almost all MCOs have assessed their Y2K
        readiness with over half having tested more than two-thirds of their computer systems,
        although development and testing of contingency plans is lagging.

Most MCOs are unaware of their business partners’ Y2K readiness

        The majority of MCO respondents have discussed the possible millennium risks with their
        medical providers and subcontractors. It appears that these discussions may have been
        largely information sharing since most MCOs report that they are unsure of the Y2K


Y2K Readiness of MCOs                           1                                    OEI-05-98-00590
        readiness of their medical providers and subcontractors. Less than one-quarter of MCOs
        report testing data exchanges with two-third or more of their medical providers and
        subcontractors.

Differences in Y2K readiness, assessment and testing exist based on tax status
and size of MCOs

        Currently, 22 percent of all MCO respondents claim to be Y2K ready. However, when
        the tax status of the MCO is taken into consideration, 26 percent of for-profit MCOs
        claim to be Y2K compliant compared to 16 percent of not-for-profit. In addition, more
        large size plans are Y2K compliant compared to small and medium size plans. Also, more
        large and for-profit MCOs have assessed 100 percent of their systems for Y2K readiness.

Agency Comments

        We received comments from the Health Care Financing Administration. Their comments
        are included in Appendix D. The HCFA is conducting an outreach effort to address the
        preparedness of MCOs and is monitoring the MCOs’ business continuity and contingency
        planning efforts. As part of this monitoring, HCFA is directing MCOs to submit their
        contingency plans to HCFA by July 15, 1999. The HCFA has also awarded a contract to
        an Independent Verification and Validation firm to provide assistance in conducting on-
        site visits to numerous MCOs to assess their Y2K readiness.




Y2K Readiness of MCOs                          2                                   OEI-05-98-00590
                        TABLE                         OF               CONTENTS


                                                                                                         PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS


         MCOs’ Internal Y2K Readiness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


         MCOs Unaware of Business Partners’ Readiness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


         Difference Based on Tax Status and Size . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


APPENDICES

         Non-Response Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


         Glossary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


         Survey Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


         Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23





Y2K Readiness of MCOs                                              3                                                  OEI-05-98-00590
                             INTRODUCTION

PURPOSE

        To examine the Year 2000 readiness of Medicare + Choice managed care organizations
        and provide information for the Health Care Financing Administration.

BACKGROUND

        The healthcare industry is a complex array of public and private enterprises with many
        interdependencies among various Federal, State and local governments and key partners.
        Partners that include, but are not limited to, managed care organizations, physicians,
        healthcare facilities, durable medical equipment suppliers, clinical laboratories, biomedical
        equipment and device manufacturers and sundry other support services.

        The problem stems from the way computers have traditionally stored dates through the
        use of an “implied century.” To save memory and storage space, programmers have
        conventionally used only two digits, rather than four, in year date fields. When the
        calendar flips over to January 1, 2000, many computer systems will recognize the year
        “00" as 1900 and applications will either stop running or produce unpredictable results.
        Computer systems that are not “Y2K compliant” simply will not be able to recognize dates
        occurring after 1999 (e.g., “01" will be recognized as 1901 rather than 2001). These
        computer systems will not be able to process date and time sensitive data from one
        century into another or between centuries.

        Some of the key computer systems at risk among healthcare providers that could affect
        the 6.5 million Medicare beneficiaries enrolled in managed care are: premium billing
        systems, medical information systems, and managed care membership enrollment and
        disenrollment systems. Failure of these systems to correctly process data could negatively
        impact beneficiary access to care, service delivery, efficient Medicare reimbursement and
        quality of care. Also at risk for failure are medical devices and scientific laboratory
        equipment that have software applications or embedded chips using two-digit fields to
        represent the year. Equipment failures, especially those that provide misinformation that
        goes undetected, could possibly lead to false diagnoses that harm beneficiaries and delay
        needed care.

        The General Accounting Office’s (GAO) “Year 2000 Computing Crisis: An Assessment
        Guide” purports that, for Federal agencies to meet the Y2K deadline, assessment should
        have been completed in mid-1997 and “renovation work should be done by mid-1998 to
        allow sufficient time for validation and implementation.”

        Though perhaps not as complex or problematic as government program systems, managed
        care organizations (MCOs) are considered especially vulnerable to Y2K problems due to
        the myriad business systems they operate. These are systems that are crucial to the
        ongoing interface necessary to communicate with corporate and government payer


Y2K Readiness of MCOs                             4                                     OEI-05-98-00590
        sources and accounts-payable balances with physicians, hospitals, and other medical and
        non-medical providers and subcontractors.

Meeting the Y2K Challenge

        The Health Care Financing Administration (HCFA) has made the Y2K initiative its
        number one priority and is committed to making sure that its date-sensitive systems and
        those of its business partners are ready to verify eligibility, enrollment, coverage and
        payment. The HCFA defines Y2K compliant as:

                “...information technology that accurately processes date/time data
                (including, but not limited to, calculating, comparing, and
                sequencing) from, into, and between the nineteenth, twentieth and
                twenty-first centuries, and the years 1999 and 2000 and leap year
                calculations. Furthermore, Year 2000 compliant information
                technology, when used in combination with other information
                technology, shall accurately process date/time data if the other
                information technology properly exchanges date/time data with it.”
        Meeting the Y2K challenge requires identifying, renovating and testing all computer and

        information systems to assure the transition from a six-digit date (12/31/99) to an eight-

        digit date (12/31/1999) by January 1, 2000. Some examples of critical dates include:


        <       the date a beneficiary became eligible for Medicare, 

        <       the date a patient was admitted or discharged from a hospital, 

        <       the date a wheelchair rental began, and

        <       the date an enrollee entered a Medicare managed care plan. 


        A trouble-free transition into the new millennium is key to meeting the needs of Medicare

        beneficiaries and providers. At stake are efficient reimbursement and beneficiaries’ access

        to, and the timeliness and quality of, health care. The HCFA advises its contracting

        MCOs to review the GAO Assessment Guide as an aid to becoming Y2K compliant. The

        HCFA advocates using the following five proactive steps to identify and address potential

        impacts presented by the Year 2000 challenge: 


        1.	     Awareness - inventory all hardware and software systems on the potential Y2K
                impact.
        2.	     Assessment - determine the Y2K readiness of these systems for operation beyond
                12/31/99.
        3.	     Renovation - update or replace systems and software programs as needed to
                ensure operations will be Y2K ready.
        4.	     Testing - test existing and newly purchased systems and software to verify they
                work.
        5.	     Contingency Planning - develop business contingency plans for operations
                beyond 12/31/99, just in case something goes wrong.




Y2K Readiness of MCOs                            5                                     OEI-05-98-00590
Managed Care Organizations’ Millennium Compliance Responsibilities

        Effective January 1, 1999, The Balanced Budget Act of 1997 established a new Medicare
        + Choice program that expands the health insurance options available to Medicare
        beneficiaries. The options now include an array of health plans and delivery systems
        beyond those that were previously available under the Medicare program. These new
        choices will offer beneficiaries health plan options similar to those available to the non-
        Medicare population.

        The HCFA has requested their Medicare + Choice managed care organizations to make
        Y2K compliance a top priority. They have advised MCOs to assess the following business
        components:

        <       Applications (including cross-business applications and all external interfaces).
        <       Databases.
        <       Computer Infrastructure (including hardware, system software,
                telecommunications, and date dependent functions such as passwords, accounts
                and software licenses).
        <       Non-Information Technology Systems (including physical plant security, card entry
                systems, elevator systems, environmental control systems).

        In a Managed Care Millennium Compliance Letter dated September 17, 1998, HCFA
        delineates the following Year 2000 compliant responsibilities for their contracting MCOs:

        <	      Complying with the enrollment and payment data exchange processes requirements
                as outlined in HCFA’s Operational Policy Letter 98.068. (In essence, MCOs are
                to update all “date/time” fields in the record layouts of the Enrollment and
                Disenrollment Transaction and the Transaction Reply/Monthly Activity Report
                Data Format to record a four digit year.)
        <	      Clearly defining all internal and external systems and interfaces requiring
                compliance (membership systems, claims systems, medical record systems,
                pharmacy and lab systems, exchanges between delegated groups, etc.).
        <       Performing a thorough risk assessment.
        <       Identifying all involved parties and entities with whom data is exchanged and
                assuring that the defined requirements are clearly understood by these parties.
        <       Ensuring that providers, suppliers, and beneficiaries are aware of the Y2K
                compliant issues and problems that may arise.
        <	      Ongoing communications with trading partners with whom there is a data
                exchange to assure that they are taking the appropriate measures toward Y2K
                compliance.
        <       Developing implementation plans and testing schedules.
        <       Performing extensive testing.
        <       Developing an extensive contingency plan.

        In addition to the above responsibilities, HCFA will require MCOs to: (1) “...certify that
        they understand HCFA’s Y2K compliant definition and have tested all of their data
        systems/interfaces to ensure Y2K compliance,” and (2) “...have a contingency plan in
        place in the event that internal organization or key external business partner systems fail.”


Y2K Readiness of MCOs                             6                                     OEI-05-98-00590
Other Office of Inspector General Work

        The Office of Inspector General (OIG) has also conducted surveys of hospitals, nursing
        homes, home health agencies, durable medical equipment suppliers and physicians to
        examine the Y2K readiness of these providers. The results of these surveys can be found
        in an OIG report entitled Y2K Readiness of Medicare Providers, OEI-03-98-00250.

METHODOLOGY

        The purpose of this inspection was to gather information from Medicare + Choice
        contractors regarding their Y2K preparedness. We developed the survey instrument in
        cooperation with the Health Care Financing Administration, the Health Insurance
        Association of America and the America Association of Health Plans. Based on
        discussions with HCFA and with the intent to achieve a higher response rate, the survey
        was anonymous with no tracking of respondents.

        We received from HCFA a list of 412 Medicare + Choice contracts that were in effect
        January 1, 1999. Some organizations have multiple Medicare + Choice contracts with
        HCFA, we decided to send a survey for each contract. After reviewing the information
        provided by HCFA, we determined that five contracts did not have complete address
        information. We did not send a survey to these contracts.

        On December 28, 1998, we sent postcards to the 407 Medicare + Choice contractors
        alerting them that we would shortly be sending a survey on their Y2K preparedness. On
        January 4, 1999, we sent a survey along with a cover letter and a self-addressed, stamped
        envelop to 407 contractors. We sent a follow-up postcard on January 19, 1999. Another
        survey package was sent on February 8, 1999 to all Medicare + Choice contractors,
        except those contractors where the organization voluntarily identified themselves on a
        returned and completed survey.

        For those organizations that have multiple contracts with HCFA, we allowed them to
        respond once for the organization. We asked all organizations to inform us about the
        number of contracts for which they were responding. We received 219 surveys,
        representing 310 contracts, that were used in our analysis for a response rate of 76
        percent.

        In addition to those organizations that completed and returned our survey, five
        organizations responded with form letters regarding the Y2K readiness. These five
        organizations represent 41 contracts. We did not include their responses in our survey
        analysis. We also received two letters back from organizations for other reasons. Seven
        surveys were returned as having no forwarding address.

        Because of the anonymity of the survey, we were only able to conduct a limited non-
        response analysis to determine if the responders were different than the non-responders.
        Through the survey, we identified the tax status of the contractors that responded. We
        compared the response rate for not-for-profit and for-profit MCOs to the overall
        percentage of not-for-profit and for-profit MCO contracts. We found no statistical
        evidence of bias based on the tax status of the contract. For more information on our non-

Y2K Readiness of MCOs                           7                                   OEI-05-98-00590
        response analysis, please see Appendix A. We have included as Appendix B a glossary of
        terms used in the report. We have also included as Appendix C a copy of the
        questionnaire that we used along with the overall survey results.

Scope

        We did not assess the data exchange between HCFA and the Medicare + Choice
        organizations. We also did not examine issues that dealt with the potential impact of
        Y2K-related problems on Medicare beneficiaries access or quality of care. The data
        analyzed in this report was furnished by MCOs and was not verified for accuracy.

        We conducted our review in accordance with the Quality Standards for Inspections issued
        by the President’s Council on Integrity and Efficiency.




Y2K Readiness of MCOs                            8                                   OEI-05-98-00590
                                    FINDINGS

MCOs appear to be moving toward internal Y2K compliance
Currently, 22 percent of MCOs report being Y2K ready

        Overall, 22 percent of MCOs claim that they are currently Y2K ready. Yet, less than half
        of these MCOs have tested all of their computer systems to ensure that they accurately
        process time and dates. In addition, only 72 percent of these MCOs report that they have
        completed assessing all of their computer systems for Y2K readiness. Of the MCOs that
        report that they are currently Y2K compliant, 56 percent have contracted out for an
        independent verification and validation assessment of their computer systems’ Y2K
        readiness.

Most MCOs report that all of their computer systems will be Y2K ready by
December 31, 1999

        Of the 78 percent of MCOs who report that they are currently not Y2K ready, 65 percent
        claim that 100 percent of their computer systems will be Y2K compliant by December 31,
        1999; another 34 percent of MCOs report that between 67 to 99 percent of their
        computer systems will be Y2K ready by December 31, 1999.

        Almost half (45%) of all our MCOs report that they have contracted with an outside
        organization to perform an independent verification and validation assessment of their
        Y2K readiness. The HCFA strongly recommends MCOs follow this course of action to
        ensure Y2K compliance.

Almost all MCOs have assessed their Y2K readiness

        Almost all (93%) MCO respondents report having taken the first step of identifying Year
        2000 risks and assessing the potential impact of these risks to their organizations.
        Elemental in this assessment is the prioritizing of mission-critical systems for Y2K
        conversion. Nearly all (95%) of our MCO respondents have assessed more than two-
        thirds of their computer systems, with 56 percent claiming to have assessed 100 percent of
        their computer systems for Y2K readiness.

        Managed care organizations may conduct such assessments in house or employ the
        services of an independent, external contractor. Fifty-five percent of MCOs have engaged
        the services of an external contractor to assist them in their efforts to solve Y2K-related
        computer problems.

        An organization’s awareness of Year 2000 issues is a contributing factor to the successful
        implementation of a Y2K compliant program. Ninety-seven percent of our MCO
        respondents believe that their staff are aware of potential Y2K problems. About half of
        the MCOs have trained staff, organization wide, to handle any problems associated with
        millennium issues.


Y2K Readiness of MCOs                            9                                   OEI-05-98-00590
Over half of MCOs have tested more than two-thirds of their computer systems

        To date, over 50 percent of MCO respondents have tested two-thirds or more of their
        computer systems to ensure that dates and time are accurately processed in the Year 2000.
        See Table 1 for MCO survey responses on their computer systems’ Y2K readiness.

Table 1
                       MCO INTERNAL COMPUTER SYSTEMS TESTING
                 Survey Question                           Response      Percent of Systems Tested
                                                                      0% 1-33% 34-66% 67-99% 100% Unsure

 Q 30. How many of your computer systems, including
 hardware and software, have you tested to ensure that                2% 14%     20%    49%     13%    2%
 they accurately process date and time data (e.g.
                                                            N = 310
 calculating, comparing and sequencing) for the years
 1999 & 2000, and the leap year calculations?

 Q 31. How many of your computer systems, including
 hardware and software, have you tested to ensure that                11% 17% 17%       47%     5%     3%
 they accurately process date and time data (e.g.
                                                            N = 310
 calculating, comparing and sequencing) from, into
 and between the nineteenth, twentieth and twenty-
 first centuries?

 Q 32. How many of your computer systems, including
 hardware and software, have you tested for possible                  5% 12% 16%        53%     6%     8%
 “date discontinuity” failures?
                                                            N = 308

 Q 33. How many of your computer systems, including
 hardware and software, have you tested to ensure that                5% 12% 17%        44%     14%    8%
 end of file codes are not misinterpreted as dates (e.g.
                                                            N = 308
 9999 as September 9, 1999 and 999,999,999 as
 September 8, 2001)?

 Source: OEI Survey 1999
 May not add to 100 percent due to rounding


        The GAO advises that system renovation efforts should be validated and tested to:
        (1) uncover errors introduced during renovation, (2) validate Y2K compliance, and
        (3) verify operational readiness. Testing should account for application, database
        interdependencies and interfaces. Without going through this verification process,
        assurances of Y2K compliancy are a coin toss.

Contingency plans are lagging

        Contingency planning is an important aspect of a Year 2000 conversion program and one
        that HCFA and the GAO advise for mission-critical systems. The GAO further advises
        that such plans should begin development in the assessment stage of a Y2K program, prior
        to the renovation and testing of computer systems. On average, 64 percent of MCOs have
        thus far developed contingency plans related to potential Y2K problems. See Table 2 for
        MCO survey responses on their Y2K contingency planning.


Table 2

Y2K Readiness of MCOs                                      10                                 OEI-05-98-00590
                      MCO INTERNAL SYSTEMS CONTINGENCY PLANS
                   Survey Question                      Number of             Response
                                                       Respondents
                                                                      Yes    No    N/A    Unsure

 Have you developed a contingency strategy for
 dealing with potential Y2K-related problems
 associated with your:


 premium billing systems?                                N = 298      71%    15%     5%      9%

 biomedical equipment or devices?                        N = 303      41%     9%    41%      10%

 medical information systems?                            N = 302      68%    13%     9%      10%

 membership enrollment & disenrollment systems?          N = 303      73%    14%     4%      10%

 member appeal & grievance systems?                      N = 297      67%    16%     5%      12%

 telephone systems?                                      N = 284      67%    19%     3%      11%

 Source: OEI Survey 1999
 May not add to 100 percent due to rounding


        Forty-one percent of our respondents believed the development of contingency plans for
        biomedical equipment did not apply to them. Another 41 percent believed the opposite
        and had developed contingency plans for Y2K problems that might occur involving
        biomedical equipment used by their medical providers or subcontractors.

        Testing contingency plans is vital to achieving a smooth transition into the new
        millennium. As of January/February 1999, only 8 percent of MCOs had tested their
        contingency plans to verify they worked.



Most MCOs are unaware of their business partners’ Y2K
readiness
Y2K discussions with medical providers and subcontractors appear to be limited
to MCO information sharing

        In general, MCOs’ knowledge of the Y2K readiness of their medical providers and
        subcontractors is largely unknown. We found that 81 percent of MCOs have discussed
        possible millennium risks with their medical providers and 89 percent have discussed these
        issues with their subcontractors.

        However, it appears that these discussions may have been largely information sharing by
        the managed care organizations, since 68 percent of MCOs report they are unsure of the
        current Y2K readiness of their medical providers’ computer systems. Fifty-nine percent of
        MCOs report that they are unsure if their subcontractors’ computer systems are Y2K
        compliant.


Y2K Readiness of MCOs                             11                                 OEI-05-98-00590
        In addition, 68 percent of MCOs are unsure if their medical providers have tested their
        biomedical equipment. Seventy-five percent of MCOs are unsure whether their
        subcontractors have tested their biomedical equipment.

Over half of MCOs have developed contingency plans to deal with potential Y2K
failures associated with their medical providers and subcontractors

        Sixty-one percent of MCOs have developed contingency plans for dealing with Y2K-
        related problems associated with their medical providers, while 65 percent developed
        contingency plans for subcontractor Y2K-related problems. Managed care organizations
        have received limited assurances from their medical providers and subcontractors that they
        will be Y2K compliant by December 31, 1999. Only 24 percent of MCOs had received
        such assurances from two-thirds or more of their medical providers that their systems
        would be Y2K ready. Twenty-one percent of MCOs had received such assurances from
        two-thirds or more of their subcontractors.

Less than one-quarter of MCOs have tested data exchanges with two-thirds or
more of their medical providers and subcontractors

        Twenty-two percent of MCOs have tested data exchanges with two-thirds or more of
        their medical providers. A similar percentage reports having tested data exchanges with
        two-thirds or more of their subcontractors.

        About three-fourths (73%) of MCOs will require their subcontractors to demonstrate that
        their systems are Y2K compliant. On the other hand, only 30 percent of MCOs will
        require their medical providers to do so.



Differences in Y2K readiness, assessment and testing exist
based on tax status and size of MCOs
More for-profit and large MCOs claim to be Y2K ready

        Overall, 22 percent of MCOs claimed that they were currently Y2K ready. When we
        examined MCO responses based on their tax status, we found that 26 percent of for-profit
        MCOs claim that they are currently Y2K ready, while 16 percent of not-for-profits claim
        that they are Y2K ready.

        In addition, more large size plans (47%) are currently Y2K ready compared to small
        (20%) and medium (15%) size plans. We considered large plans to be those with more
        than 50,000 Medicare enrollees, medium size plans to have Medicare enrollments between
        2,000 and 50,000, and small plans to have less than 2,000 Medicare enrollees.




Y2K Readiness of MCOs                           12                                   OEI-05-98-00590
More large and for-profit MCOs have assessed 100 percent of their computer
systems

        Seventy-one percent of large MCOs have assessed 100 percent of their computer systems
        for Y2K readiness compared to 50 percent of medium MCOs and 64 percent of small
        MCOs. In addition, 68 percent of for-profit MCOs have assessed all of their computer
        systems compared to 39 percent of not-for-profit MCOs.

Fewer medium size MCOs have developed contingency plans for Y2K-related
problems related to medical providers

        Overall, 61 percent of MCOs have developed contingency plans for dealing with Y2K-
        related problems associated with their medical providers. When we analyzed the MCOs’
        response by the size of the MCOs, we found that 56 percent of medium size plans
        developed contingency plans for problems associated their medical providers compared to
        71 percent and 72 percent for large and small MCOs respectively.

        A similar situation exists as it relates to contingency plans developed for subcontractor
        Y2K-related problem. Overall, 65 percent developed contingency plans for subcontractor
        Y2K-related problems compared to 59 percent of medium size plans.

Agency Comments

        We received comments from the Health Care Financing Administration. Their comments
        are included in Appendix D. The HCFA is conducting an outreach effort to address the
        preparedness of MCOs and is monitoring the MCOs’ business continuity and contingency
        planning efforts. As part of this monitoring, HCFA is directing MCOs to submit their
        contingency plans to HCFA by July 15, 1999. The HCFA has also awarded a contract to
        an Independent Verification and Validation firm to provide assistance in conducting on-
        site visits to numerous MCOs to assess their Y2K readiness.




Y2K Readiness of MCOs                          13                                   OEI-05-98-00590
                                                                                       APPENDIX A

                                   Non-Response Analysis


          A consideration in survey analysis is that the results may be biased if non-respondents are
          significantly different from respondents. To determine whether a difference exists in this
          survey, we compared the two groups, respondents and non-respondents by the tax status
          of their contracts. Since tax status is a categorical variable (either for-profit or not-for-
          profit), we tested for statistical significance using a chi-square with the appropriate
          degrees of freedom.

Analysis by tax status

          We found that not-for-profit MCOs had a lower response rate (68%) compared to for-
          profit MCOs (82%). The computed chi-square test statistic (11.757) is statistically
          significant at the 99 percent confidence level. This indicates a potential for bias in the
          results. See Table 3 for response rate and test statistics.

Table 3
                             Comparison of Respondents By Tax Status
                     Respondents            Non-respondents                 Total           Percent
                                                                                           Responding
                Number       Percent     Number       Percent      Number       Percent
 For-
 Profit            188         61%           40          41%          228           56%        82%
 Not-For-
 Profit            120         39%           57          59%          177           44%        68%


 Total          308     100%                 97          100%         405           100%       76%
Chi-square = 11.757 DF = 1

          To determine the effect of the relationship between response rate and tax status, we
          undertook an analysis of the non-respondents. Assuming that non-respondents would
          have answered the same as respondents answered, we calculated a hypothetical global
          response to Questions 15, 25a, 28 and 35. These questions ask about overall assessment,
          current Y2K readiness, computer systems’ assessment and anticipated Y2K readiness. We
          found that the responses were within the confidence intervals for the original estimates.
          Therefore, no statistical evidence of bias based on tax status was shown.




Y2K Readiness of MCOs                               14                                     OEI-05-98-00590
                                                                                 APPENDIX A

                               Non-Response Analysis


MCO letter responses to Y2K survey

        In addition to our non-response analysis, we received letters detailing Y2K efforts from 5
        managed care organizations, representing 41 plans. The following is a summary of their
        reported Year 2000 readiness.

        MCO A: This MCO began its Y2K assessment in 1998. It “anticipates” that its internal
        systems will be Year 2000 compliant or contingency plans will be in place before
        December 1999. The MCO has sent a Y2K readiness questionnaire to its vendors and
        plans to track vendor responses.

        MCO B: This MCO began its Y2K assessment in 1995. As of February 1999, the MCO
        reports that its internal inventory and assessment, including its biomedical equipment, is
        “largely complete.” Remediation efforts are currently underway and hardware and
        operating system software is currently being tested. The MCO is also investigating the
        Y2K readiness of its business partners and is seeking assurances of those partners’ Year
        2000 readiness.

        MCO C: This MCO plans to have all major information services and facility equipment
        and services Year 2000 compliant by August 1999. The initial inventory of its information
        services and infrastructure is complete. Project test plans are currently, as of January
        1999, being developed for its “high risk enterprise-wide and department specific
        equipment and systems.” In addition, the MCO is currently in the process of contacting its
        business partners (e.g. vendors, suppliers, contractors, external agents) to determine their
        Y2K readiness.

        MCO D: This MCO reports that 98 percent of its internal systems remediation efforts
        were completed by December 31, 1998. The MCO reports that most of its external file
        formats and underlying system logic has be modified to process 4 digit years and all of its
        systems meet HCFA’s eight digit requirement. As of January 1999, the MCO systems
        “currently Y2K ready and processing proven” are: (1) automated eligibility systems, (2)
        medical and dental claims systems, (3) provider referral and pre-authorization systems, and
        (4) other critical managed care billing and payment systems. The MCO also reports that
        its reimbursement accounts, pharmacy administration, managed dental care systems, and
        managed behavioral care systems are also Year 2000 compliant.

        The MCO plans to focus on integrated testing and external readiness issues in 1999. It
        has completed internal unit, system and acceptance testing on all of its systems and is now
        in the process of conducting end-to-end testing of all systems. Contingency and business
        resumption plans are currently being developed for key processes. In addition, the MCO
        has retained the services of biomedical engineering firms to verify Y2K claims made by
        manufacturers of the biomedical equipment directly owned by the MCO. Presently, the
        MCO is also conducting assessments of the potential Y2K problem impact from third-

Y2K Readiness of MCOs                           15                                    OEI-05-98-00590
                                                                                  APPENDIX A

                                Non-Response Analysis


        party entities critical to its operations. Critical vendor assessments and site visits,
        including alternative sourcing strategies are now being done. The MCO is also in the
        process of testing key vendor computer systems’ interface.

        MCO E: This MCO began its Year 2000 compliance efforts in 1996. As of December
        1998, the MCO reports that 75 to 80 percent of its systems are currently Y2K ready. The
        MCO expects to be 100 percent Y2K compliant by December 1999. The MCO also
        expects to have completed its internal assessment by January 31, 1999 and its remediation
        efforts by March 31, 1999. Contingency plans for critical business processes are expected
        to be completed by June 1999 and testing for Year 2000 compliancy has already begun.
        An inventory and assessment of the Y2K readiness of its vendor and counter party support
        (e.g. insurance, payroll, outside data processing) is also being conducted by the MCO.
        Letters of compliancy expectation have been sent to its business partners and the MCO
        plans to assess suppliers and vendors for their Y2K readiness.




Y2K Readiness of MCOs                            16                                   OEI-05-98-00590
                                                                                 APPENDIX B

                                         GLOSSARY

Y2K Ready:              MCO’s, contracted medical providers’ and subcontractors’ computer
                        systems that can compute and process dates after December 31, 1999.

Medical Provider:	 Any individual or entity engaging in the delivery of health care services in a
                   State who is licensed, certified or required by the State to engage in that
                   activity in that State.

Subcontractor:          A secondary contractor undertaking some or all of the obligations of
(Vendor)	               another contract. These obligations include, but are not limited to, tangible
                        goods, professional services, technical support and functions delegated to
                        other entities. For example, DME vendors, home health agencies,
                        hospitals, audit firms, billing companies, etc.

Computer Systems: Systems that relate to the following functions or areas:
                  1.	   Continued access to quality medical care (including things like
                        DME, appointment scheduling, pharmacy, etc.);
                  2.    Financial stability;
                  3.    Continued provider payments (contracted and non-contracted);
                  4.	   Enrollment/eligibility administrative functions (e.g. appeals,
                        grievances and encounter data collection);
                  5.    Communications capabilities (e.g. telephone systems);
                  6.    Quality assurance; and,
                  7.	   Any other delegated or subcontracted good, services or
                        relationship, that could cause a potential adverse impact to an
                        enrollee.

Date Discontinuity:	 Date discontinuity can occur when a computer system’s internal time clock
                     does not move forward in line with true time. For example, such systems
                     are equipped with a “clock” that calculates time from a fixed point by
                     counting the number of clock ticks. This fixed point is usually an arbitrary
                     date set by the equipment manufacturer. When enough clock ticks
                     accumulate and register as full, the internal clock is reset, like a car
                     odometer, to show zero. This will be interpreted by the computer as the
                     arbitrary date previously set by the manufacturer.

End of File Codes:	 Software programers commonly designate certain numbers to indicate the
                    end of a computer program file. For example, “9999" and “00" are often
                    used. The computer will malfunction if it misinterprets these end of file
                    codes to represent actual dates; in this case, September 9, 1999 and the
                    year 2000.




Y2K Readiness of MCOs                            17                                    OEI-05-98-00590
                                                                                                   APPENDIX C
         Medicare Managed Care Organization Year 2000 Survey

Demographic/Background Information (Please circle the correct response or fill in the blank)

1. 	 How would you describe your plan type?   (a) HMO, (b) CMP, (c) Other
                                       N= 307     83%     12%     5%

2. 	 How would you describe your contract type?      (a) Cost,   (b) Risk,   (c) HCPP, (d) Demonstration
                                            N= 307     11%          78%           2%        8%

3. 	 How would you describe your organizational model?

       (a) Staff, (b) IPA, (c) Group, (d) Mixed, (e) Other (please list):
 N= 306 3%            38%      12%       44%         2%

4. 	 What is the tax status of your plan?            (a) Non-profit,    (b) For-profit
                                 N= 308                  39%                61%

5. 	 What types of enrollees do you serve? Circle all that apply

        (a) Commercial, (b) Medicare, (c) Medicaid,              (d) Other (please list):

6. 	 What is the size of your enrollment for each population you serve?

         Medicare___________, Medicaid____________,                    Commercial___________, Other_____________

7.   What is the total number of members you serve? _____________________

8. Where are the majority of your members located? (a) urban areas, (b) rural areas, (c) suburban areas, (d) Mix of
areas
                                     N= 303      20%                     2%             3%                76%

9. 	 Do you contract with Medicare on a national scale? _____ Yes               No _____
                                         N= 310          34%                       66%

10. What geographic HCFA region, or regions, does your plan service?

11. 	Does your organization delegate claims or any other functions to providers or third-party administrators?
                                                                                                           ____Yes No____
                                                                                                 N= 310 61%            39%

12. Have you engaged the services of an outside/external contractor to assist in your efforts to solve Y2K-related
computer problems?    _____Yes        No _____
               N= 310 55%                 45%

13. 	If you answered “Yes” to either Q11 or Q12, have you obtained assistance from that entity in completing this survey?

                          _____Yes          No _____
           N= 252         10%                   90%

14. Concerning this survey, for how many H#s are you responding? ________________________




        Y2K Readiness of MCOs                                     18                                       OEI-05-98-00590
                                                                                           APPENDIX C
         Medicare Managed Care Organization Year 2000 Survey

Awareness/Contingency Planning                                                                  Yes   No N/A Unsure

15. 	Have you identified the Y2K risks facing your business operations and assessed the potential impact
    and probability of occurrence of each of these risks?                                       Î Ï Ð               Ö
                                                                            N= 303              93% 2%       0%     4%
16. 	Are your staff, organization wide, aware of potential Y2K problems?                        Î Ï Ð               Ö
                                                                             N= 305             97% 1%       1%     2%
17. 	Have your staff, organization wide, been trained to handle potential Y2K problems?         Î Ï Ð               Ö
                                                                             N= 302             51%   41%    2%     6%
18. 	Have you discussed Y2K issues with your medical providers?                                 Î Ï Ð               Ö
                                                                             N= 309             81%   14%    1%     4%
19. 	Have you discussed Y2K issues with your subcontractors?                                    Î Ï Ð               Ö
                                                                           N= 309                   89% 5%   4%     2%
20. Are you facing the following constraints or obstacles in identifying or fixing potential Y2K problems:
        a: lack of financial resources?	                                                        Î Ï Ð               Ö
                                                                             N= 308             3% 96% 0%           0%
        b: lack of skilled personnel?	                                                          Î Ï Ð               Ö
                                                                             N= 309             7%    93% 0%        0%
        c: lack of subcontractor cooperation?	                                                  Î Ï Ð               Ö
                                                                             N= 308             3%    85% 3%        9%
        d: lack of medical provider cooperation?	                                               Î Ï Ð               Ö
                                                                           N= 309               3%    77% 3%        17%
21. 	Are your medical providers and subcontractors (e.g. hospitals, physicians, chemistry and
     imaging service providers) hesitant to share their Y2K test information due to:
    a. 	fear of legal liability and litigation from patients, vendors and others?               Î Ï Ð               Ö
                                                                             N= 280             19% 34% 4%          43%
    b. 	concerns over patient loss of confidence?                                               Î Ï Ð               Ö
                                                                             N= 279             3%    35% 4%        58%
    c. 	concerns over investor loss of confidence?                                              Î Ï Ð               Ö
                                                                             N= 279             3%    35% 4%        58%
    d. 	fear of interference and oversight from regulatory agencies?                            Î Ï Ð               Ö
                                                                             N= 278             4%    35% 4%        57%




        Y2K Readiness of MCOs                                 19                                  OEI-05-98-00590
                                                                                         APPENDIX C
         Medicare Managed Care Organization Year 2000 Survey

                                                                                                 Yes No N/A Unsure
22. 	Have you developed a contingency strategy for dealing with potential Y2K-related problems
     associated with your:
        a: premium billing systems?                                                              Î Ï Ð               Ö
                                                                             N= 298              70% 15% 5%          9%
        b: biomedical equipment or devices?	                                                     Î Ï Ð               Ö
                                                                             N= 303              41%   9% 41%        10%
        c: medical information systems (e.g. patient files, utilization)?	                       Î Ï Ð               Ö
                                                                             N= 302              68% 13%    9%       10%
        d: membership enrollment/disenrollment systems?	                                         Î Ï Ð               Ö
                                                                             N= 303              73% 14% 4%          10%
        e: member appeal/grievance systems?	                                                     Î Ï Ð               Ö
                                                                             N= 297              67% 16% 5%          12%
        f: 	medical providers?                                                                   Î Ï Ð               Ö
                                                                             N= 298          61% 19% 5%              15%
        g: subcontractors?	                                                                      Î Ï Ð               Ö
                                                                             N= 299              65% 14% 9%          12%
        h: telephone systems?	                                                                   Î Ï Ð               Ö
                                                                             N= 300              67% 19% 3%          11%
23a.Have you tested your contingency plans?                                                      Î Ï Ð               Ö
                                                                             N= 300              8% 77%     2%       12%
    23b. If you have not tested your contingency plans, when will they be tested? ____________________
24. Have you contracted with an outside organization for an “independent verification and validation”
    assessment of your organization’s Y2K readiness?                                             Î Ï Ð               Ö
                                                                             N= 309              45% 48% 0%           6%
25a.Are your computer systems, including hardware and software, currently Y2K ready?             Î Ï Ð               Ö
                                                                             N= 310              22% 76% 0%          2%
    25b. If your computer systems, including hardware and software, are not currently Y2K ready,
         when will they be ready? __________________________________________________________
26. Are you going to require that your medical providers demonstrate that their systems
    are Y2K ready?                                                                               Î Ï Ð               Ö
                                                                             N= 306              30% 46% 11%         13%
27. Are you going to require that your subcontractors demonstrate that their systems
    are Y2K ready?                                                                               Î Ï Ð               Ö
                                                                             N= 309              73% 13% 4%          11%




        Y2K Readiness of MCOs                                 20                                   OEI-05-98-00590
                                                                                                APPENDIX C
         Medicare Managed Care Organization Year 2000 Survey

Computer Systems                                                                       0% 1-33% 34-66% 67-99% 100% Unsure

28. 	How many of your computer systems, including hardware and software, have you
     assessed for Y2K readiness?                                             Î Ï                Ð      Ñ       Ò      Ö
                                                                 N= 310            0%     0%     3%     39%     56%       1%
29. How many of your computer systems, including hardware and software, have you
    renovated or replaced?	                                                 Î Ï                 Ð      Ñ       Ò      Ö
                                                                 N= 305           1%     17%    28%    50%      2%       3%
30. 	How many of your computer systems, including hardware and software, have you
     tested to ensure that they accurately process date and time data (e.g. calculating,
     comparing and sequencing) for the years 1999 & 2000, and
     the leap year calculations?                                                  Î Ï           Ð      Ñ       Ò      Ö
                                                                 N= 310            2%     14%    20%    49%     13%      2%
31. 	How many of your computer systems, including hardware and software, have you
     tested to ensure that they accurately process date and time data (e.g. calculating,
     comparing and sequencing) from, into and between the nineteenth, twentieth and
     twenty-first centuries?                                                      Î Ï           Ð      Ñ       Ò      Ö
                                                                 N= 310           11% 16%       17%     47%     5%       3%
32. How many of your computer systems, including hardware and software, have you
    tested for possible “date discontinuity” failures?	                     Î Ï                 Ð      Ñ       Ò      Ö
                                                                 N= 308           5%     12%    16%     53%     6%       8%
33. 	How many of your computer systems, including hardware and software, have you
     tested to ensure that end of file codes are not misinterpreted as dates (e.g. 9999 as
     September 9, 1999 and 999,999,999 as September 8, 2001?                        Î Ï         Ð      Ñ       Ò      Ö
                                                                 N= 308           5%     12%    17%     44%    14%       8%
34. 	If you have not tested your computer systems for the conditions described in Q28-Q33,
     when will they be tested? _________________________________________________
35. How many of your computer systems, including hardware and software, will be Y2K
     ready by December 31, 1999?	                                                Î Ï            Ð      Ñ       Ò      Ö
                                                                 N= 310           0%      0%     0%      28%   71%       1%
36. How many of your computer systems, including hardware and software, will be Y2K
    ready for the turn of the Century leap year (February 29, 2000)?	        Î Ï                Ð      Ñ       Ò      Ö
                                                                 N= 310           0%      0%     0%     27%    71%       1%
37. How many of your medical providers have given you assurances that their systems
    will be Y2K ready?	                                                      Î Ï                Ð      Ñ       Ò      Ö
                                                                 N= 306           9%     16%     17%    14%    10% 34%
38. How many of your subcontractors have given you assurances that their systems
    will be Y2K ready?	                                                       Î         Ï       Ð      Ñ       Ò      Ö
                                                                 N= 305           3%     13%    40%    12%     9%     22%




        Y2K Readiness of MCOs                               21                                         OEI-05-98-00590
                                                                                             APPENDIX C
         Medicare Managed Care Organization Year 2000 Survey

Computer Systems                                                                    0% 1-33% 34-66% 67-99% 100% Unsure
39. How many of your medical providers have tested their medical devices
    (e.g. chemistry, imaging) for Y2K readiness?                               Î Ï           Ð        Ñ      Ò        Ö
                                                               N= 305           1%     8%      3%     12%    8%       68%
40. How many of your subcontractors have tested their medical devices
    (e.g. chemistry, imaging) for Y2K readiness?	                              Î Ï           Ð        Ñ      Ò        Ö
                                                               N= 298           2%     6%      4%     12%     1%      75%
41a.How many of your medical providers have tested data exchange between their
    systems and your systems?                                              Î         Ï       Ð        Ñ      Ò        Ö
                                                               N= 274          13% 26%         15%     19%    3%       24%
    41b. If you have not tested data exchange between your systems and your
         medical providers’ systems, when will you test?____________________
42a.How many of your subcontractors have tested data exchange between their systems
    and your systems?                                                       Î Ï              Ð        Ñ      Ò        Ö
                                                               N= 298          11%     23%     24%     19%       3%    20%
    42b. If your have not tested data exchange between your systems and your
         subcontractors’ systems, when will you test?______________________
43a.How many of your medical providers’ systems, including hardware and software,
    are currently Y2K ready?                                                 Î Ï             Ð        Ñ      Ò        Ö
                                                               N= 270          3%     10%      6%      4%     9%      68%
    43b. If your medical providers’ systems, including hardware and software, are not
         currently Y2K ready, when will they be ready? ______________________________
44a.How many of your subcontractors’ systems, including hardware and software, are
    currently Y2K ready?                                                        Î Ï Ð                 Ñ      Ò        Ö
                                                               N= 265           2%    12%      11%     15%    3%      57%
    44b. If your subcontractors’ systems, including hardware and software, are not currently
         Y2K ready, when will they be ready? ______________________________________

Please answer the following question:

45. Could your plan continue to provide services to patients if Medicare payments were delayed?

       _____ Yes (If yes, for how long?): __________________                   No _____

N=310 74%                              Mode=1 to 2 months                           19%	            7% answered other or
                                                                                                    did not answer




       Y2K Readiness of MCOs                              22                                         OEI-05-98-00590
                                           APPENDIX D

                        Agency Comments





Y2K Readiness of MCOs                23       OEI-05-98-00590
                                           APPENDIX D

                        Agency Comments





Y2K Readiness of MCOs                24       OEI-05-98-00590
                                           APPENDIX D

                        Agency Comments





Y2K Readiness of MCOs                25       OEI-05-98-00590
                                           APPENDIX D

                        Agency Comments





Y2K Readiness of MCOs                26       OEI-05-98-00590
                                           APPENDIX D

                        Agency Comments





Y2K Readiness of MCOs                27       OEI-05-98-00590
                                           APPENDIX D

                        Agency Comments





Y2K Readiness of MCOs                28       OEI-05-98-00590
